No. 21-144
In The

Supreme Court of the United States
SEATTLE’S UNION GOSPEL MISSION,
Petitioner,
v.
MATTHEW S. WOODS,
Respondent.
On Petition for Writ of Certiorari to the
Supreme Court of Washington
BRIEF OF WESTMINSTER THEOLOGICAL
SEMINARY AS AMICUS CURIAE
IN SUPPORT OF PETITIONER

KRISTINE L. BROWN
Counsel of Record
8700 E Jefferson Ave # 371703
Denver, CO 80237
(302) 515-2721
kristi@kristiburtonbrown.com

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ......................................ii
INTEREST OF AMICUS CURIAE ………….………1
SUMMARY OF THE ARGUMENT...........................2
ARGUMENT ..............................................................3
I.

II.

Decisions Like the Washington Supreme
Court’s Create Unsustainable Risks for
Religious Nonprofits …………………..............3
A.

The forcible hiring of employees
who oppose a religious mission
will create a hostile workplace,
open religious nonprofits to legal
liability, and uniquely violate their
First Amendment rights .....................5

B.

To avoid untenable legal liability,
the religious mission would have
to be compromised or abandoned
altogether as the right to freedom
of association is ignored …………….....9

Religious Nonprofits Have the First
Amendment Right to Autonomy From the
Government as They Conduct Their
Religious Mission ………………….................11

CONCLUSION .......................................................13

ii
TABLE OF AUTHORITIES
Cases

Page(s)

Bollard v. California Province of the Society of
Jesus,
196 F.3d 940 (9th Cir. 1999) ……………………12
Boy Scouts of America et al. v. Dale,
530 U.S. 640 (2000) ……….……………………...10
Combs v. Central Texas Annual Conference,
173 F.3d 343 (5th Cir. 1999) …………………….11
Hosanna-Tabor Evangelical Lutheran Church
& School v. EEOC,
565 U.S. 171 (2012) ..………………………………9
Hurley v. Irish American GLIB Association,
515 U.S. 557 (1995) ...…………………………….10
Kedroff v. St. Nicholas Cathedral of the
Russian Orthodox Church in North
America,
344 U.S. 94 (1952) ………………………………...13
Kreshik v. Saint Nicholas Cathedral,
363 U.S. 190 (1960) ………………………..…13, 14
McClure v. Salvation Army,
460 F.2d 553, (5th Cir. 1972) …………………….12

iii
Moore v. City of East Cleveland,
431 U.S. 494 (1977) …………….………………....10
Rayburn v. Gen. Conf., Seveth-Day
Adventists,
772 F.2d 1164 (4th Cir. 1985) ……………………12
Roberts v. United States Jaycees,
468 U.S. 609 (1984) ……………………..………...10
Vance v. Ball State University,
570 U.S. 421 (2013) ……………………………...7, 8
Watson v. Jones,
80 U.S. 679 (1871) …………………………...........13
Zablocki v. Redhail,
434 U.S. 374 (1978) ……………………………….10
Constitutional Provisions
U.S. Const., amend. I .......................................passim

INTEREST OF AMICUS CURIAE1
For nearly 100 years, Westminster Theological
Seminary, a 501(c)3, has stood its ground, even -- and
especially -- when that required standing alone in a
changing culture. Westminster’s mission statement
is: “Westminster exists to train specialists in the Bible
to proclaim the whole counsel of God for Christ and
His global church.” Each seminary employee is
integral to fulfilling that religious mission. The
Westminster curriculum is grounded in the Word of
God, and the Seminary has a deeply held religious
belief that the whole counsel of God must be taught.
Ministry at Westminster is not one-dimensional, and
it is essential that each employee be a dedicated
coreligionist.
“But to Christ, despite all, we hold.” These are the
words from founder J. Gresham Machen which
launched Westminster almost 100 years ago, and they
have remained true to Westminster’s conviction ever
since. The founding of Westminster began in 1929
when Machen (who had spent 23 years as an esteemed
scholar at Princeton Theological Seminary) resigned
from his Princeton post where liberalism had been
gaining a foothold.

All parties have consented to the filing of this amicus brief
through blanket consents pursuant to Rule 37.3(a). In accordance
with Rule 37.6, counsel affirms that no counsel for any party
authored this brief in whole or in part and that no person or entity
other than amicus or its counsel made a monetary contribution
intended to fund the preparation and submission of this brief.
Counsel for both parties received 10 day notice under Rule 37.2(a).

1

2
In the face of cultural compromise, Machen and
his co-founders chose obedience to the truth of the
Bible and the centrality of Christ. This came with a
cost as they sacrificed jobs, status, legacy, and
financial security. When the founders opened the door
to Westminster Theological Seminary, the school had
few resources, no land, and no name recognition, but
Machen reminded all that the Seminary’s pursuit
meant going against growing trends in culture with a
reliance on Christ and Scriptural truth – a religious
mission which they would all fight for.
Today, Westminster’s expert faculty trains
students with the insight, conviction, and ingenuity
they inherited from the founders. Over four thousand
Westminster alumni serve churches in over 50
countries; 300+ alumni teach as professors around the
world; 60+ alumni have founded and led schools and
seminaries; 500+ books have been published by
Westminster faculty. Each of these results, along with
the ability to remain true to Westminster’s deep
religious beliefs -- without constant hostile workplace
claims -- could be at great risk if this Court does not
affirm that the First Amendment protects religious
nonprofits’ right to hire coreligionists in any and every
employment position in order to advance their
religious missions.
SUMMARY OF THE ARGUMENT
The Washington Supreme Court’s decision has
placed religious nonprofits on a precipice of disaster.
If state courts are allowed to force religious
organizations to hire employees who oppose their
views, religious nonprofits will soon be erased from

3
American society. If the coreligionist doctrine is
rejected, organizations with religious missions will be
subject to constant hostile workplace lawsuits,
heightened legal liability, significant hardships, and
the eventual destruction of their religious missions.
The Washington Supreme Court’s ruling is
antithetical to the First Amendment rights of freedom
of religion, expression, and association. No
organization should be specifically targeted for
erasure and increased legal liability specifically
because it is religious and adheres to established and
sincere Christian beliefs concerning marriage and
sexuality. And yet, this is what has happened to
Seattle’s Union Gospel Mission and what is on the
horizon for amicus and similar religious nonprofits if
this Court does not intervene.
ARGUMENT
I.

Decisions Like the Washington Supreme
Court’s Create Unsustainable Risks for
Religious Nonprofits.

If the Washington Supreme Court’s ruling is left
to stand, no religious organization can maintain a
religious
identity
without
risking
constant
accusations of a hostile work environment by those
who do not share the same religious beliefs. Potential
employees who are seeking litigation and large
settlements with employers they can accuse will have
a heightened opportunity -- and a potential heyday -to target religious employers. After all, if a religious
employer requires its employees to sign a statement of
faith, to attend chapel once a week, to observe Biblical

4
standards in a marriage relationship, or a host of
other conventional religious commitments, a person
who does not share the same religious beliefs (like Mr.
Woods) will have more opportunity to raise a hostile
work environment claim. Such a person should never
be able to force their way into a known religious work
environment in the first place, particularly where all
parties involved know that the person holds opposing
or different religious views and has the goal of
insisting the religious organization change its
religious beliefs, standards, or mission to match his.
Similar to Seattle’s Union Gospel Mission, amicus
makes its religious mission abundantly clear to all
potential employees. It is clear that a person with
different or no religious beliefs will not thrive inside
an organization with a clear religious mission.
Whenever a religious employer believes that a
potential employee will be at odds with the mission of
the organization, does not hold the same religious
beliefs, or cannot effectively communicate or advance
the religious mission, the judiciary must not create an
obligation for the employer to make the hire. If there
is no right for religious organizations to hire
coreligionists, there is an assurance that hostile
workplace claims will be more common, and donations
given for the purpose of advancing a religious purpose
will instead be used to settle aggressive lawsuits with
those who oppose the religious mission or to pay courtordered judgments.
The Washington Supreme Court has no right to
put Seattle’s Union Gospel Mission or any other
religious employer in such a trap.

5
A. The forcible hiring of employees who
oppose a religious mission will create a
hostile
workplace,
open
religious
nonprofits to legal liability, and
uniquely violate their First Amendment
rights.
Without the ability to hire only those who share
the religious employer’s religious beliefs, a religious
employer cannot operate a workplace consistent with
its beliefs, and its First Amendment rights have
dissolved. If Seattle’s Union Gospel Mission cannot
require employees to share its faith, practice shared
religious beliefs, and share the faith as part of their
jobs, then the Mission’s entire reason for existing has
-- for all intensive purposes -- been declared illegal
under Washington State Law.
Certainly, this is an outcome
Amendment was designed to prohibit.

the

First

The inevitable conflict between employer and
employee when a religious employer is not permitted
to hire only coreligionists was on clear display before
the Washington Supreme Court. Mr. Woods, while
asserting to be Christian, has a contrary view on
issues of human sexuality and marriage -- a view that
Seattle’s Union Gospel Mission and other similar
religious organizations find to be in direct
contradiction to sacred Scripture. Yet, the
Washington Supreme Court held that a religious
employer cannot limit its hiring to those who share its
faith. If not reversed, this means that a religious
employer will not be able to promote, advocate, or
require its employees to affirm what it believes

6
Scripture clearly teaches on marriage, sexuality, and
other subjects.
Without a clear recognition of First Amendment
rights, religious employers will be subject to claims of
a hostile work environment should they operate
consistent with their faith and for a clearly religious
purpose. In fact, the Washington Supreme Court’s
decision creates an environment where a religious
employer will automatically create a hostile work
environment simply by conducting its ministry (or
“business”) consistent with its faith, should one of its
employees disagree with the employer’s religious
beliefs. As with Mr. Woods, who disagreed with the
Petitioner’s views on sexuality and marriage, the
Washington Supreme Court gave a license to all
employees to effectively silence religious employers on
matters of faith or be subject to claims of religious
discrimination.
This is not what was anticipated by the First
Amendment.
Moreover, the forcible hiring of employees who
oppose a religious nonprofit’s viewpoint could easily
and frequently result in truly hostile workplaces. If an
employer is forced to hire someone who has expressly
stated that he will not uphold the mission of the
employer -- and in fact opposes the beliefs of the
employer, as Mr. Woods does -- this could easily result
in a hostile workplace with a variety of employees,
managers, and others in constant disagreement and
turmoil. Not only would the mission of the
organization be at real risk, but also, with someone in
a management position who is opposed to the very

7
mission of the organization, this opens all employees
under such a manager to possible persecution and
harassment simply for sharing the employer’s
religious views. A harmonious work environment
becomes quite literally impossible, thanks to court
intervention that effectively discards the Free
Exercise Clause.
Additionally, the Washington Supreme Court’s
decision effectively doubles the legal liability of
religious nonprofits if an employee who is not a
coreligionist harasses employees who subscribe to
different beliefs. In Vance v. Ball State University, 570
U.S. 421, 445 (2013), Justice Alito noted: “[T]his
approach will not leave employees unprotected
against harassment by co-workers who possess the
authority to inflict psychological injury....In such
cases, the victims will be able to prevail simply by
showing that the employer was negligent in
permitting this harassment to occur…”
And yet, if the religious employer is not allowed to
hold its employees to standards that meet its religious
mission because the Washington Supreme Court says
this is “discrimination,” how can a religious employer
effectively stop the harassment perpetrated by an
employee who it can neither correct nor corral, for fear
of being accused of discrimination? On the one hand,
the religious nonprofit is liable for “discrimination,”
but on the other hand, it is liable for negligence in
permitting the harassment. Which legal liability
should a religious nonprofit choose? And why, in the
face of the First Amendment, should a religious
organization be uniquely forced into heightened risks
of legal liability at all? Under the Washington

8
Supreme Court’s ruling, a religious organization that
simply lives out its faith, advances its faith-based
mission, and sets its own definition of who is a
coreligionist is now subjected to an expanded array of
legal liability and lawsuits that may be brought by
employees – or even applicants – who disagree with
its sincerely held religious beliefs.
The Washington Supreme Court has effectively
handcuffed religious employers from stopping an
employee who holds different religious beliefs -- whom
they must now hire -- from inflicting psychological
injury (per Vance) on a religious employee without
risking a “discrimination” claim. This has become
quite the circular conundrum, and the sights of the
state court are set solely on religious organizations
who stand to incur massive legal liability merely for
trying to further their beliefs. Such religious
organizations have been marched to the edge of a cliff
by the Washington Supreme Court and, for all
practical purposes, been pushed off to certain
destruction as they are forced to hire those who
disagree with their beliefs and wish to actively work
to change them. No religious mission will succeed for
long when it is forced to hire those who will work in
opposition to it.
The predictable increase in hostile workplace
claims and massive legal liability will erase religious
organizations from society. Amicus asks this Court to
stop such a preventable danger from percolating any
longer. It is an impossible burden for a religious
nonprofit to be required to hire someone who is not a
coreligionist and who will neither share nor advance
the religious mission of the nonprofit.

9
B. To avoid untenable legal liability, the
religious mission would have to be
compromised or abandoned altogether as
the right to freedom of association is
ignored.
With the Washington Supreme Court’s decision, it
is practically impossible for a religious nonprofit -- like
Seattle’s Union Gospel Mission or amicus, were it
located in Washington state -- to hold any religious
viewpoint or to require religious qualifications for any
job, other than the most narrowly drawn definition of
a minister, under the ministerial exception of
Hosanna-Tabor Evangelical Lutheran Church &
School v. EEOC, 565 U.S. 171, 188 (2012). In a bizarre
twist, the Washington Supreme Court has made itself
the arbiter of which employees are allowed to be
religious and which ones may not be. For amicus, as a
seminary, most employees would not qualify under a
narrow ministerial exception, and yet, hiring only
coreligionists who subscribe to amicus’ religious
mission and beliefs is central to its existence as an
organization.
Effectively, the very existence and maintenance of
a religious identity as a nonprofit in Washington now
violates the non-discrimination statute. If this is
allowed to stand, the First Amendment has been
largely mooted out in Washington, as this new reality
touches not only the Free Exercise Clause, but also the
right to freedom of expression and the freedom of
association. Which state courts will follow suit,
believing they are empowered to strip religious
nonprofits of the right to maintain a real religious

10
identity without fear of discrimination and hostile
workplace environment claims? Is Pennsylvania,
where amicus is located, next?
When organizations -- like Seattle’s Union Gospel
Mission and amicus -- are formed to advance a specific
religious mission, there is an almost intimate
association between the employees of the organization
who are advancing a religious mission in the world
together. This Court has recognized that the right of
intimate association protects an individual's decisions
regarding those with whom he or she will form deep
personal attachments or make intense personal
commitments. Roberts v. United States Jaycees, 468
U.S. 609, 617, 619-20 (1984); see also, Zablocki v.
Redhail, 434 U.S. 374 (1978); Moore v. City of East
Cleveland, 431 U.S. 494 (1977). This Court has
distinguished these associations as having "a high
degree of selectivity in decisions to begin and
maintain the affiliation." Roberts, 468 U.S. at 620.
Such an individual right of freedom of association
necessarily extends to religious nonprofits as they
advance a highly selective mission that requires
coreligionists to carry it out successfully.
At least, there is the right to expressive
association recognized by this Court in Hurley v. Irish
American GLIB Association, 515 U.S. 557 (1995) and
Boy Scouts of America et al. v. Dale, 530 U.S. 640
(2000). Every employee of the Mission and of amicus
is hired and chosen to share the same goal: to advance
the religious mission of the organization. When the
judiciary refuses to allow this right to expressive
association, religious organizations are banned from

11
limiting their hires to coreligionists, and the mission
of the organization is destroyed.
II. Religious Nonprofits Have the First
Amendment Right to Autonomy From the
Government as They Conduct Their
Religious Mission.
Religious nonprofits must be allowed to hire those
employees who can best fulfill the organization’s
mission without the constant threat of lawsuits
hanging over their heads. A religious organization’s
mission must be allowed to be defined by the
organization, not by the government, the courts, or
any other outside influence.
Indeed, since a religious mission chosen by a
religious organization is highly selective and
religiously personal to that specific organization,
there is no more room for the judiciary to tread into
this realm than there is for it to tread upon the hiring
of a minister. In the succinct words of the Fifth
Circuit: “[W]e cannot conceive how the federal
judiciary could determine whether an employment
decision concerning a minister was based on
legitimate or illegitimate grounds without inserting
ourselves into a realm where the Constitution forbids
us to tread, the internal management of a church.”
Combs v. Central Texas Annual Conference, 173 F.3d
343, 350 (5th Cir. 1999).
“The Free Exercise Clause rationale for protecting
a church's personnel decisions concerning its
ministers is the necessity of allowing the church to
choose its representatives using whatever criteria it

12
deems relevant.” Bollard v. California Province of the
Society of Jesus, 196 F.3d 940, 945 (9th Cir.1999). This
same rationale ought to guard religious organizations,
as they operate with an equally religious and equally
sincere mission as a church does.
While it is correct that ministers act as the
church's “lifeblood,” McClure v. Salvation Army, 460
F.2d 553, 558 (5th Cir. 1972), so do employees who
fulfill the religious mission of religious organizations.
Indeed, it would offend the Free Exercise Clause
simply to require religious organizations such as
Seattle’s Union Gospel Mission or amicus to articulate
a religious justification for their personnel decisions.
See Rayburn v. Gen. Conf., Seventh-Day Adventists,
772 F.2d 1164, 1169 (4th Cir. 1985) (“[T]he free
exercise clause of the First Amendment protects the
act of a decision rather than a motivation behind it.”).
Religious
organizations
have
the
First
Amendment right to govern their own internal affairs
without the interference of an arm of government.
This right to freedom from interference in religion
must not be limited only to those organizations that
expressly identify as a “church” or a “temple” or a
“mosque” or only to those who extend the title
“minister” or “pastor” or “priest” in the job description
of their employees.
If a religious nonprofit is not allowed the freedom
to define and maintain its own mission through hiring
only coreligionist employees, the religious mission is
moot and so is the First Amendment. When the
judiciary extends its power so far as to erase religious
missions through the risk of heightened legal liability,

13
the threat of increased hostile workplace claims, and
the elimination of First Amendment freedoms,
religious identities will disappear from the nonprofit
world.
If the Washington Supreme Court’s decision is left
to stand, a religious organization will no longer be
allowed to have a religious purpose, a religious
mission, or a religious job description. In effect, this
will ban the existence of religious nonprofits, as the
forcible hiring of employees who do not agree with a
religious organization’s mission will eventually result
in these employees becoming managers and
executives who will eventually change the core
mission of the organization. Courts do not have the
power to force this result, but this is what the
Washington Supreme Court has done.
CONCLUSION
Over 150 years ago, in Watson v. Jones 80 U.S.
679 (1871), this Court first recognized the Church
Autonomy principle which has allowed churches to
determine how their own organization will be
governed, without the meddling of government. The
Autonomy principle has stopped arms of the
government from defining and controlling the
religious missions and the governance of churches.
See, e.g., Kedroff v. St. Nicholas Cathedral of the
Russian Orthodox Church in North America, 344 U.S.
94, 116 (1952) (explaining that the Free Exercise
Clause protects the power of religious organizations
“to decide for themselves, free from state interference,
matters of church government as well as those of faith
and doctrine”); Kreshik v. Saint Nicholas Cathedral,

14
363 U.S. 190, 191 (1960) (per curiam) (forbidding the
courts as well as the legislature from interfering with
Free Exercise rights).
Religious nonprofits should be free to operate with
the same autonomy.
Plainly, the First Amendment foundationally
protects the rights of religious individuals and
organizations to operate freely in society; to advance
their religious missions; to hire those who embrace
their religious beliefs; and to remain true to the
conventional religious doctrines upon which they were
founded. No individual has a right to be hired by a
religious organization when his or her beliefs-- or
when the effect of his or her lifestyle choices -- will
ruin the religious mission of the organization.
Such a precedent, if it is allowed to spread
throughout the nation’s courts, will effect the erasure
of the Free Exercise Clause while it simultaneously
subjects religious nonprofits to untenable legal
liability that will force their closure.
Respectfully submitted,
KRISTINE L. BROWN
Counsel of Record
8700 E Jefferson Ave # 371703
Denver, CO 80237
(302) 515-2721
kristi@kristiburtonbrown.com
August 31, 2021

